<html>
<title> - NORTH KOREA AFTER KIM JONG-IL: STILL DANGEROUS AND ERRATIC</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    NORTH KOREA AFTER KIM JONG-IL: 
                      STILL DANGEROUS AND ERRATIC

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2012

                               __________

                           Serial No. 112-149

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
73-815                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Frederick H. Fleitz, Managing Editor, LIGNET.com, Newsmax 
  Media (former CIA Intelligence Officer and former Chief of 
  Staff, Under Secretary for Arms Control and International 
  Security, U.S. Department of State)............................     8
Michael Green, Ph.D., Senior Advisor and Japan Chair, Center for 
  Strategic and International Studies............................    20
Mr. Scott Snyder, Senior Fellow for Korea Studies, Director of 
  the Program on U.S.-Korea Policy, Council on Foreign Relations.    29
Patrick M. Cronin, Ph.D., Senior Advisor & Senior Director of the 
  Asia Program, Center for a New American Security...............    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Frederick H. Fleitz: Prepared statement......................    10
Michael Green, Ph.D.: Prepared statement.........................    22
Mr. Scott Snyder: Prepared statement.............................    31
Patrick M. Cronin, Ph.D.: Prepared statement.....................    40

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    67


                    NORTH KOREA AFTER KIM JONG-IL: 
                      STILL DANGEROUS AND ERRATIC

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will now come to 
order. Welcome to my fellow members of the committee, and of 
our distinguished panel of witnesses who are joining us today.
    After recognizing myself and the ranking member, my good 
friend from California, Mr. Berman, for 7 minutes each for our 
opening statements, I will recognize the chairman and the 
ranking member of the Subcommittee on Asia and the Pacific for 
3 minutes, followed by 1-minute statements from each committee 
member who wishes to speak.
    We will then hear from our witnesses, and I would ask that 
you summarize your prepared statements to 5 minutes each before 
we move to the questions and answers with members under the 5-
minute rule.
    Without objection, the prepared statements of all of our 
witnesses will be made a part of the record, and members may 
have 5 legislative days in which to insert statements and 
questions for the record, subject to the length limitations in 
the rules.
    The Chair now recognizes herself for 7 minutes.
    Today we will examine the tumultuous events that have again 
consumed the Korean Peninsula. In a sense, negotiating with 
North Korea is similar to the endless repetition presented in 
the film Groundhog Day. Withdrawal from negotiations is 
followed by provocative action. Next, there is a wooing by the 
United States and its allies, with concessions offered. Then, a 
so-called breakthrough deal. Finally, another betrayal, often 
in the form of a missile launch or the disclosure of a secret 
nuclear operation.
    It was so with the Clinton administration, with the George 
W. Bush administration, and thus it has come to pass, as well, 
with the Obama administration. President Clinton's agreed 
framework ended with the disclosure of Pyongyang's highly 
enriched uranium program. President Bush's attempt at 
rapprochement, including the removal of North Korea from the 
list of state sponsors of terrorism, which I adamantly opposed, 
was met with the construction of a secret nuclear reactor in 
Syria, which Israel thankfully destroyed.
    And then, yet another betrayal. The Obama administration is 
confronted with the abject failure of its Leap Day deal on 
February 29th with North Korea, and has refused to send 
witnesses who were privy to the Beijing negotiations to testify 
today at our hearing.
    Old Kim, Kim Jong-Il, had of course responded to President 
Obama's inaugural overture of an outstretched hand by 
kidnapping two U.S. journalists, firing a missile, setting off 
a nuclear weapon, sinking a South Korean naval vessel, and 
shelling a South Korean island. His son, Kim Jong-Un, seems 
fully intent on fulfilling the old adage that the apple doesn't 
fall far from the tree. He has already tried a failed missile 
launch, and may be plotting yet a third nuclear test.
    The U.N. Security Council issued a presidential statement 
condemning the April 13th missile launch as a serious violation 
of Security Council Resolutions 1718, and 1874. No real 
consequences for North Korea's flagrant violation and action 
that threaten global peace and security.
    While the missile blew up soon after leaving the launch 
pad, as all of us know, it is said that, in international 
relations, measuring intent is just as important as measuring 
capability. North Korea's rhetoric should have told our 
negotiators all they needed to know. The military-first policy 
of starving the people to feed the army and supply the 
munitions industry remains. The South Korean Defense Ministry 
estimated this month that the North Koreans spent $850 million 
on the failed missile launch, enough to buy corn to feed the 
entire population for an entire year. Politics in North Korea 
remains all about the Kim dynasty and its needs, not about 
either the concerns of the United States or the welfare of the 
Korean people.
    A particularly unfortunate result of the Leap Day agreement 
was the combining of discussions of nuclear disarmament and 
food assistance at the same negotiating table. This was a 
departure from the approach of both the Clinton administration 
and the Bush administration, which held to the Reagan doctrine 
that a hungry child knows no politics. It also led to a highly 
embarrassing reversal on the food aid decision following the 
missile launch, even as administration officials insisted that 
there was no direct linkage between food assistance and the 
failed negotiations.
    Our distinguished panel of experts can shed light today on 
whether succession from the old Kim to the young Kim has really 
changed anything in North Korea, or is it merely an old Kim in 
a new uniform? Further, there is the pressing issue of how we 
should respond to future provocation, including another nuclear 
test. We also wish to examine how we should go forward in 
addressing the simmering North Korean crisis: A rogue state, in 
possession of nuclear weapons, working on delivery capability, 
engaged in murky proliferation activities with opponents of the 
United States and south Asia.
    The young general at Sunday's military parade gave every 
indication that trouble lies just ahead with North Korea. 
Dressed in a dark Mao suit, he viewed tanks, missiles, and 
goose-stepping troops as they paraded through North Korea's 
capital in a celebration of the hundredth anniversary of his 
grandfather's birth. In his first public remarks since assuming 
power, the young Kim bombastically warned that ``the days of 
enemies threatening and blackmailing us with nuclear weapons 
are forever over.''
    The new Kim looks and acts suspiciously very much like the 
old Kim. Here is a brief video clip, that will just take us a 
few seconds to line up, of the Cold War military parade held on 
Sunday in Pyongyang that clearly illustrates the nature and the 
priorities of the North Korean regime.
    If we could show the clip?
    [Whereupon, a video was played.]
    Chairman Ros-Lehtinen. Thank you very much. And now I am 
pleased to turn to my good friend, the ranking member of our 
committee, Mr. Berman of California, for his opening statement.
    Mr. Berman. Well, thank you very much, Madam Chairman, for 
calling a very timely hearing. It is interesting to note, 
before I begin my opening statement, that the parade that we 
just saw that clip from showed a truck carrying a North Korean 
missile that looked very much, it is reported, like a similar 
Chinese truck. There are U.N. resolutions regarding the exports 
of arms to North Korea at this point.
    Anyway, Pyongyang's failed missile launch, which is a clear 
violation of U.N. Security Council Resolutions, and carried out 
in defiance of strong international pressure, demonstrates that 
North Korea, under Kim Jong-Un, is essentially the same as when 
it was ruled by his father and grandfather.
    Indeed, North Korean leaders have shown a remarkable 
consistency in reneging on commitments regarding their nuclear 
and missile programs, the latest being the February 29 Leap Day 
agreement. With the possibility of another nuclear test on the 
horizon, Pyongyang has shown its clear preference for 
provocative and destabilizing behavior. President Reagan 
famously remarked that, when dealing with the Soviet Union, we 
should trust but verify. With regard to North Korea, he might 
have said, ``Never trust, and never cease to verify.''
    The fundamental questions before us today are, how can the 
United States and the rest of the world change the North's 
behavior? Is change even possible? And if not, then what should 
be the appropriate course of action to mitigate the North 
Korean threat? Successive Presidents, both Republican and 
Democratic, as the chairman pointed out, have pursued a policy 
of ``tough engagement,'' with Pyongyang. Given North Korea's 
proclivity to break agreements before the ink has dried, does 
it make sense to continue this approach? If not, what is the 
alternative? Are there additional sanctions we could place on 
North Korea that would change their behavior, and does it make 
sense to tie food aid to specific actions taken by the North?
    At a minimum, I believe the U.S. should do everything 
possible to ensure that existing U.N. Security Council 
Resolutions on North Korea are fully implemented, and I welcome 
the recent Security Council presidential statement, indicating 
that additional entities involved in North Korea's 
proliferation activities will be sanctioned in the coming days. 
We must also continue to coordinate closely with our South 
Korean and Japanese allies on how to best address the North 
Korean threat, while maintaining a robust U.S. military 
presence in those countries.
    By virtue of history and geography, China remains one of 
the few nations with some leverage over North Korea. 
Regrettably, Beijing has been unwilling to use that leverage to 
persuade Pyongyang to change course. While China may have 
expressed its displeasure with the North's recent missile 
launch, the fact remains that Beijing serves as Pyongyang's 
economic lifeline, sending food and fuel to prop up the North 
Korean regime, and luxury goods to satisfy the North Korean 
elite.
    China continues to play this role because Beijing fears a 
flood of refugees from an unstable North Korea more than a 
North Korea armed with ballistic missiles and nuclear weapons. 
My guess is that Beijing also likes having a buffer between 
itself and South Korea, a strong U.S. ally. But by enabling the 
North Korean regime's reckless and aggressive behavior, which 
threatens regional stability, China ends up undermining its own 
security calculus.
    And just what kind of regime is China backing? For the 
North Korean people, life under the young Kim is as bleak as 
ever, with the average citizen enjoying no real political, 
religious, or personal freedoms. Hundreds of thousands of North 
Korean political prisoners remain imprisoned in gulags. Others 
endeavor to escape by any means possible, even if it means 
crossing into China, where many refugees are forced into 
prostitution and hard labor.
    Despite the North's efforts to appear ``strong and 
prosperous'' this year, to celebrate the hundredth birthday of 
the country's founder, vast numbers of North Koreans continue 
to face starvation. Sadly, the North Korean regime's misguided 
priorities, pouring hundreds of millions of dollars into its 
so-called space program, its nuclear programs, and its massive 
military, only underscore its cold-hearted callousness and 
blatant disregard for its own people. Chinese willingness to 
support such a wicked regime casts a dark shadow on Beijing's 
own international reputation.
    I thank the panel of experts for being here this morning, 
and look forward to their thoughts on how to make our policy 
toward North Korea more effective. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman. And 
taking Mr. Manzullo's spot, we will give 3 minutes to Mr. 
Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    Mr. Royce. Thank you, Madam Chairman. Mr. Berman was just 
talking about the magnitude of the human rights abuses there. 
In terms of the numbers, this is the worst human rights abuser 
on the planet. And for any of us in these hearings who have 
heard the testimony or met up with defectors in China or in 
South Korea, it is truly appalling.
    Now, when you think about the cost of this launch, at least 
a $0.5 billion cost to this launch--I have been in North 
Korea--there is no way that regime could squeeze pennies out of 
the populace in North Korea. To get this hard currency 
requires, for the most part, a funding source outside of the 
country. And frankly, if China were bothered by North Korea's 
ICBMs, if it were bothered by North Korea's dual-track nuclear 
program, it would stop subsidizing them. It would stop funding 
these operations.
    A policy of tackling North Korea's illicit activities, 
which brings money from outside the country, whether it is the 
sale of their meth and heroin--they do a lot of that--or it is 
the sale of their missile programs, and bringing the hard 
currency back from that program, that is the way to weaken the 
regime.
    And, as we will hear today, until it was dropped in favor 
of an alternative course of action in 2006, the Treasury 
Department went after North Korea's funds parked in Macau bank, 
attacking its counterfeiting, attacking its other illicit 
activities through the Proliferation Security Initiative.
    If you will recall, on the high seas, many of these ships 
were stopped. It cut off the flow of currency into the regime, 
and that prevented--for a while--the government from paying its 
generals. It prevented for a while--according to the defectors 
we talked to, the missile program shut down. They couldn't buy 
gyroscopes on the black market for their missiles. I guess 
Japan had manufactured some gyroscopes, and you pay a premium 
on the black market to get those. They could no longer fund 
that, so for 8 months that program was shut down, until we 
reversed course and the money began to course back through the 
veins, back into the regime.
    And this is what their head propagandist who defected to 
the United States told us. The number one goal is to get access 
to hard currency. For what purpose? To fund their nuclear 
program and their ICBM program. So it would require some 
energy, it would require some creativity, some focus. And I 
would say that that has been disturbingly absent to date in 
terms of how we address this problem. But for those of us----
    Chairman Ros-Lehtinen. Thank you.
    Mr. Royce [continuing]. That would want to see a long-term 
solution to it, I think cut off the flow of illicit activities, 
look at what we did with Banco Delta Asia in terms of 
reinforcing that type of discipline, cut off the funding, and 
begin the process of the right kind of----
    Chairman Ros-Lehtinen. Thank you.
    Mr. Royce [continuing]. Broadcasts into North Korea to 
begin the process of change internally.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Royce. Mr. 
Ackerman is recognized.
    Mr. Ackerman. I thank the chair. I think you kids have got 
it covered.
    Chairman Ros-Lehtinen. Thank you. Mr. Manzullo is 
recognized.
    Mr. Manzullo. Thank you, Madam Chair, for calling this 
important hearing regarding North Korea and the future of the 
Korean Peninsula.
    North Korea after Kim Jong-Il will remain just as dangerous 
and unstable as it was under his leadership. The glimmer of 
hope, no matter how minuscule, that Kim's successor, his son 
Kim Jong-Un, would pick a brighter path for his people, faded 
with last week's failed missile launch. Denuclearization of the 
Korean Peninsula remains a goal that the U.S. and the six-party 
partners must strive for. However, given North Korea's erratic 
behavior recently and over the course of the past several 
years, the goal of denuclearization seems further away than 
ever before.
    I commend the administration for halting assistance to the 
North, and I encourage the President and the Secretary of State 
to stand firm against any further destabilizing actions. 
Furthermore, if North Korea proceeds with testing a nuclear 
weapon, as they likely may do if prior behavior is any 
indicator, then all members of the six-party talks must 
forcefully condemn this behavior.
    The future of North Korea is bleak, and it is the people of 
North Korea that will bear the unimaginable hardship of Kim 
Jong-Un's tyranny. It is my firm belief that North Korea will 
never give up its nuclear weapons, because it is the weapons 
themselves that the regime is using to maintain its iron grip 
there.
    I hope our distinguished witnesses today will address the 
human rights tragedy, particularly as it relates to any 
possible negotiation with North Korea in the future. Madam 
Chair, again, thank you for calling this hearing. I look 
forward to hearing the testimony of our witnesses.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Manzullo. 
Thank you for your attendance, always. Ms. Bass is recognized.
    Ms. Bass. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Berman, for holding this hearing. Over more than five 
decades, the U.S. has strengthened its alliance and bolstered a 
lasting relationship with South Korea. Efforts, however, to 
achieve peace with North Korea have proven elusive and globally 
frustrating. With the passing of one leader and the emergence 
of another, now more than ever the United States must hold 
North Korea accountable for its actions, which continue to 
undercut peace and reconciliation on the Korean Peninsula.
    I had the opportunity to go to the demilitarized zone, and 
looking at the--I don't know, it seemed almost like a scene out 
of history, looking back to the 1950s, at the level of tensions 
between the North and the South. And I am looking forward to 
comments that the panel might have about the new leader.
    The world recently watched as North Korea failed to launch 
a rocket that many believe will be used to wage war. Events 
like this shed lights on the reality of the North and a society 
where many live in fear. Thank you for coming today.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Chabot, the 
chairman of the Subcommittee on the Middle East and South Asia, 
is recognized.
    Mr. Chabot. Thank you, Madam Chair, and thank you for 
calling this timely hearing. Since the Obama administration 
came to office, its foreign policy has been characterized by 
so-called engagement. The President has defined this policy as 
extending an outstretched hand, in the hopes that the mere 
gesture would cause some of the world's most brutal dictators 
to unclench their fists.
    The administration's engagement efforts with Bashar al-
Assad of Syria, the brutal regime in Tehran, for example--those 
two are probably the best examples--have been complete 
failures. At best, they have not achieved their objectives, and 
at worst they have, in the eyes of the people in those 
countries, allied us with the regimes that brutalize them.
    As Einstein noted, insanity is doing the same thing over 
and over again and expecting different results. And yet, that 
appears to be precisely what this administration has been doing 
in North Korea, as well as in the Mideast. As soon as one 
dictator passed, Kim Jong-Il, this administration leapt at the 
opportunity to engage with his son, Kim Jong-Un, who appears to 
be a chip off the old block. This has not worked, it will not 
work, and it should be reversed.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot. And 
now I am pleased to recognize and introduce our panelists.
    We will first hear from Frederick Fleitz--did I do that, 
more or less? Fleitz. He is currently the director of the 
Langley Intelligence Group Network. He served as a senior 
analyst with the CIA for almost two decades prior, and was 
Chief of Staff to John Bolton, then Under Secretary of State 
for Arms Control and International Security. To top off his 
distinguished career in government service, he became a 
professional staff member with the House Permanent Select 
Committee on Intelligence in 2006, acting as a senior advisor 
to our good friend, Committee Chairman Pete Hoekstra. Welcome 
back.
    Then I would like to welcome Dr. Michael Green, a senior 
advisor and the Japan chair at the Center for Strategic and 
International Studies. Dr. Green previously served as Special 
Assistant to the President for National Security Affairs, and 
Senior Director for Asian Affairs at the National Security 
Council in the George W. Bush administration. He originally 
joined the NSC in 2001 as Director of Asian Affairs.
    I would then welcome Mr. Scott Snyder, thank you, a Senior 
Fellow for Korean Studies and Director of the Program for U.S.-
Korea policy at the Council on Foreign Relations. Prior to CFR, 
Mr. Snyder was a Senior Associate in the International 
Relations Program of the Asia Foundation, where he founded and 
directed the Center for U.S.-Korea Policy and served as the 
Asia Foundation's representative in Korea from the years 2000 
to 2004.
    And finally, we welcome Patrick Cronin. He is a Senior 
Advisor and Senior Director of the Asia Pacific Security 
Program at the Center for a New American Security. Previously, 
Dr. Cronin was the Director of the Institute for National 
Strategic Studies at the National Defense University, and has 
had a 25-year career inside government and academic research 
centers.
    Thank you. We welcome our panelists today. I ask that our 
witnesses please keep your presentation to no more than 5 
minutes. And without objection, the witnesses' entire 
statements, written statements, will be inserted into the 
hearing record.
    So we will begin with Mr.----
    Mr. Fleitz. Fleitz.
    Chairman Ros-Lehtinen. Fleitz. Thank you.

    STATEMENT OF MR. FREDERICK H. FLEITZ, MANAGING EDITOR, 
LIGNET.COM, NEWSMAX MEDIA (FORMER CIA INTELLIGENCE OFFICER AND 
  FORMER CHIEF OF STAFF, UNDER SECRETARY FOR ARMS CONTROL AND 
       INTERNATIONAL SECURITY, U.S. DEPARTMENT OF STATE)

    Mr. Fleitz. Thank you, Madam Chairman, Ranking Member 
Berman, members of the committee. It is an honor to be here 
today. And Mr. Chandler, it is a special honor to be----
    Chairman Ros-Lehtinen. Could you put that microphone a 
little closer?
    Mr. Fleitz. Sorry. It is a special honor to see you here 
today. I enjoyed working with you on the House Intelligence 
Committee staff. My name is Fred Fleitz, and I am Managing 
Director of the Langley Intelligence Group Network, a 
Washington, DC-based global forecasting and intelligence 
service, and I formerly worked for the CIA and the State 
Department.
    My remarks today will focus on North Korea's WMD and rocket 
program. Last week's multi-stage rocket launch that North Korea 
claims was intended to lift a satellite into orbit but was 
probably a test of an ICBM surprised some experts and U.S. 
diplomats. However, this launch was consistent with past North 
Korean behavior.
    Although it may seem counterproductive, coming just weeks 
after a food aid deal was reached with the United States, North 
Korea has done this before, apparently in the wrongheaded 
belief that provocations strengthen its ability to prevail in 
future diplomatic talks. There has been a cycle of apparent 
North Korean agreements, followed by provocations, cooling-off 
periods, and then new agreements. Pyongyang has learned that, 
no matter how badly it acts, the United States will eventually 
come back to the negotiating table, usually with new 
concessions.
    It is possible that last week's missile launch was intended 
to test American resolve. Since the February 29th food deal 
with the United States was quite generous and placed limited 
restrictions on the North Korean nuclear program, Pyongyang may 
have been tempted to see how far it could push Washington. 
North Korea may have believed, with the United States 
distracted by Afghanistan and Iran, U.S. officials would be 
reluctant to confront Pyongyang over the missile launch.
    It is worth noting that international reaction to the 
launch was fairly weak. The U.N. Security Council this week was 
only able to pass a non-binding Presidential Statement, the 
usual response when the United States and its allies cannot get 
past Russian and Chinese vetoes. Despite speeches by U.S. 
officials condemning the launch, the United States is aware 
that the U.N. response was mild, and probably believes U.S. 
envoys will ask to meet with it again soon.
    North Korea angrily responded to the Security Council's 
action and U.S. statements, but we don't yet know whether this 
was face-saving bravado or a real effort to ratchet up 
tensions. It does seem clear, however, from its recent 
statements, that North Korea plans more rocket launches.
    Some experts are complaining that past practice in 
intelligence suggests North Korea could follow up last week's 
rocket launch with a nuclear test. I am reluctant to make such 
a prediction for a number of reasons I outline in my prepared 
testimony. Despite reports of activity and digging at North 
Korea's nuclear site, I should note that such activity is very 
common. Given the country's extreme secrecy and good 
counterintelligence practices, I doubt very much there would be 
any good satellite imagery of a North Korean test preparation 
before Pyongyang announced that a test would take place.
    Whether or not there is a North Korean nuclear test in the 
short term, its WMD programs are extremely dangerous. As I 
state in my prepared testimony, LIGNET believes Kim Jong-Un's 
hold on power is probably secure. He and his family assumed 
power of a state with robust WMD programs, including biological 
weapons, chemical weapons, ballistic missiles and nuclear 
weapons.
    While the U.S. Intelligence Community has publicly stated 
that it does not know whether North Korea has nuclear weapons, 
it said in February 2009 that the country is capable of 
producing them and has enough plutonium for about six nuclear 
bombs. I want to point out that, 2 months after the U.S. 
Intelligence Community publicly released this figure, North 
Korea told the IAEA that it had decided to reactivate all 
Yongbyon nuclear facilities and to go ahead with the 
reprocessing of spent fuel. As a result, North Korea may have 
amassed several more weapons worth of plutonium since April 
2009, and it may have yet even more nuclear weapons fuel.
    We now know, after years of arguments within the U.S. 
Government, North Korea has a uranium enrichment program. This 
program was worked on over an extended period, according to the 
Director of National Intelligence. This program could be a 
source of weapons-grade fuel. The North Korean WMD program is, 
of course, also a special concern, as is its reactor that it 
helped build in Syria, which we have to think about very 
closely right now with the possible breakdown of the Syrian 
state.
    I finally want to note that I believe North Korea and Iran 
closely watch each other's diplomacy with the United States. If 
Israeli Prime Minister Netanyahu's claim is accurate, that 
recent talks on Iran's nuclear program gave Iran a freebie and 
a 5-week gift from the world to continue enriching uranium, it 
will have a significant effect on North Korea's negotiating 
posture when U.S. officials try to resume diplomatic talks. The 
reverse is probably true. Too generous or too quick a deal with 
Pyongyang after the rocket launch will probably embolden Iran 
to drive a hard bargain in multilateral talks.
    Thank you, Madam Chairman, and I look forward to your 
questions.
    [The prepared statement of Mr. Fleitz follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much.
    Dr. Green?

  STATEMENT OF MICHAEL GREEN, PH.D., SENIOR ADVISOR AND JAPAN 
     CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Green. Madam Chairman, members of the committee, thank 
you for inviting us to testify today on this important subject. 
I have a concern about the human rights situation and 
humanitarian food aid issues, but would like to focus on three 
issues for now.
    First, why did North Korea do this so soon after the Leap 
Day agreement? Second, does this mean we now have a breather, 
because the ICBM test failed? And third, what should we do?
    On the why, I don't think we should be surprised. Late last 
year, I wrote a number of public things predicting that the 
North Koreans would do a missile or nuclear test in the first 
half of this year, because they have been telegraphing this for 
some time in their propaganda. This is 2012, the year North 
Korea said it would be a full nuclear weapons state.
    The pattern is also quite clear. In 2006, in July, they 
tested a ballistic missile of a similar type. They were 
condemned by the U.N. And then, in October, they tested a 
nuclear device. In April 2009, they tested a similar ballistic 
missile. They were condemned by the U.N. And then in May they 
tested a nuclear device. I think it is not unreasonable to 
expect that in the next few months we will see, based on the 
historical pattern, a nuclear test.
    So the pattern fits. Is this a period now where we can take 
a breather, where there is a lull, having expressed our 
condemnation through the PRST, or President's Statement in the 
Security Council? I don't think so. I think, as the chairwoman 
suggested, we are probably looking at increased escalation from 
North Korea in the coming months.
    If they do a nuclear test, and if it is plutonium-based, we 
will learn a lot. The first two tests yielded about one 
kiloton, and then about four kilotons. The Nagasaki bomb, by 
comparison, was 20. If this is a 10 or 15 kiloton plutonium 
test, that is very dangerous. If they have learned to 
miniaturize or weaponize, that is dangerous. It could be a test 
based on their uranium enrichment program, which we have known 
about for years, including when I was in the administration, 
but which many commentators said couldn't be real until the 
North actually showed experts their centrifuges.
    A uranium test would be very, very dangerous, because they 
could hide the capability and it would be difficult to detect. 
The ballistic missile threat is real: Nodongs, hundreds of 
them, aimed at Japan, that have been tested and have a large 
payload, and the new Musudan that they have unveiled.
    And I would also particularly encourage a focus on the 
danger of transfer. In 2003, the North Korean delegation told 
the American delegation, of which I was a member, that if we 
did not end our hostile policy they would transfer their 
nuclear weapons capability to third countries. We took that 
threat seriously at the time. We later, the next year, found 
uranium hexafluoride traces in the cache turned over by the 
Libyans from North Korea. In 2007, the Israeli Air Force bombed 
a nuclear reactor complex in Syria built by the North Koreans. 
In 2008, we had revelations about discussions between Burma and 
North Korea on nuclear issues. And, though there is no smoking 
gun, the Iran connection bears careful watching.
    So the North is clearly heading toward a nuclear weapons 
capability, deliverable through ballistic missiles or through 
country transfer, and our efforts to date have slowed, but 
hardly deterred them from that path.
    What do we do? The President's Statement from the Security 
Council had the right tone, had some of the right content. It 
was necessary, but far from sufficient. It is said North Korea 
will not negotiate under pressure, but the historical pattern 
is North Korea will not negotiate unless there is pressure, and 
the pressure has been far from sufficient to have an effect on 
their behavior.
    The Security Council Resolutions and sanctions passed in 
the wake of the last two nuclear tests are not being 
implemented. Ranking Member Berman pointed out the TEL, the 
mobile chassis for their mobile launcher, and that is probably 
a Chinese-made system. I have seen Japanese photojournalists' 
collections of North Korean trading companies openly operating 
in China, that are on the sanctions list. The Sanctions 
Committee of the Security Council has not done anything since 
it was originally charged to look at this in 2009.
    Although the administration effectively mobilized Japanese 
and Korean defense cooperation after North Korean attacks on 
South Korea in 2010, we have backed off. I also think we have 
to consider the signal it sends as we cut defense spending in 
the United States, and move away from a capability to manage 
two regional conflicts. The Korean People's Army in North Korea 
has for years said that our ability to do two-front wars will 
be one of their important considerations as they seek to 
``liberate'' the South. And as Congressman Royce pointed out, 
we have backed off on interdicting illicit transfers from North 
Korea.
    So I think there is no deep harm in talking to North Korea. 
We can learn a lot. It is an important aspect of our diplomacy. 
But I think the National Security Council meetings on North 
Korea should begin with pressure, coercion, interdiction, 
implementation of sanctions, and then, at the end, consider 
where the diplomatic and engagement piece fits in. And I think 
we have had it backwards for some time. Thank you.
    [The prepared statement of Mr. Green follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Snyder?

STATEMENT OF MR. SCOTT SNYDER, SENIOR FELLOW FOR KOREA STUDIES, 
   DIRECTOR OF THE PROGRAM ON U.S.-KOREA POLICY, COUNCIL ON 
                       FOREIGN RELATIONS

    Mr. Snyder. It is a pleasure and an honor to appear before 
the committee----
    Chairman Ros-Lehtinen. If you could punch that little 
button and hold it close?
    Mr. Snyder. Sorry about that. It is an honor to appear 
before the committee. My colleagues have already covered a 
number of main points, especially related to the Security 
Council statement and North Korean response. I think it is 
clear that we are in the middle of a dynamic very similar to 
the one that we saw in 2009, where the likelihood of additional 
escalation exists. We are facing a defiant, sovereignty-focused 
new regime.
    I want to address two topics. One is the failings of the 
Leap Day agreement, which have already been, I think, pointed 
out in the initial statements, namely the concern about the 
linkage of food to the negotiations with North Korea, which I 
agree was a mistake and should have been dealt with separately. 
And I go into that in some detail in my testimony.
    And then I think, also, the failure to state in the U.S. 
statement very clearly that a satellite test would be 
considered as part of a long-range missile, and not acceptable 
for North Korea. Clearly, the effort so far that we have seen 
has not changed North Korea's behavior. How do we change North 
Korea's behavior?
    I think that the way to do this is really to focus on 
changing the environment for North Korea in a way that 
influences its strategic options, rather than trying to 
negotiate carrots and sticks directly with North Korea as a 
vehicle by which to do that. Change the environment, and then 
talk to them to determine whether we are seeing the type of 
change that we need to see.
    And of course, we have seen in the case of Burma recently a 
good example of a situation where the leadership has made a 
strategic choice to change, and then the U.S. has found some 
traction in terms of responding.
    How do we change the environment? One, I think fundamental, 
challenge that we have faced in the face of North Korean 
provocations has been the failure to hold North Korea 
accountable for its actions, and this, I think, is particularly 
important in the context of alliance coordination.
    Different provocations by North Korea provoke different 
levels of response from us and our allies. We saw the case 
where a conventional provocation against South Korea evoked a 
strong response from South Korea, and the U.S. was focused on 
trying to make sure that South Korea didn't respond in a way 
that escalated. Likewise, it seems to me that the South Korean 
response to the rocket launch, at least in terms of public 
response, was not that strong. And so the question of how we, 
essentially, show that there is a price for provocation.
    Second, I think we need to minimize reliance on China, 
while continuing to cooperate with them in a limited way. I 
think it is very clear that the Chinese have their own 
interests in promotion of North Korean stability and in 
gradualism, and that this is creating a gap in terms of 
expectations. We shouldn't be relying on China as a way of 
trying to pursue our approach to North Korea.
    And then the third area I would like to point out is that, 
increasingly, this is a regime that is not isolated. It is 
partially integrated with the outside world. And so I think 
that we need to look carefully at whether or not that need for 
external funds that has already been addressed in various ways, 
for instance illicit activities, might also provide an 
opportunity for us.
    The sanctions approach, the sanctions-only approach, means 
that the front door has been closed. But as long as China 
leaves the back door open, it is not going to work. And so I 
think we need to find a way to exploit North Korea's partial 
integration with its neighbors as a way of drawing the North 
Koreans out.
    If the North Korean regime decided to move in the direction 
of reform--and it is true that we don't have much evidence that 
they have decided to--but the fact of the matter is that they 
don't have the technical specialists to be able to do it, even 
if they wanted to do it. And so we really need to find ways to 
expose North Koreans to long-range educational opportunities 
that will socialize them to western ways of thinking, as a way 
of inducing internal change in North Korea.
    Thank you.
    [The prepared statement of Mr. Snyder follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you. Thank you very much. 
Thank you to all of our panelists for excellent testimony.
    Oh, Dr. Cronin, I am so sorry. I am so used to going that 
way, we had you all mixed up, and I apologize. I think we would 
like to hear from you, Dr. Cronin.

STATEMENT OF PATRICK M. CRONIN, PH.D., SENIOR ADVISOR & SENIOR 
    DIRECTOR OF THE ASIA PROGRAM, CENTER FOR A NEW AMERICAN 
                            SECURITY

    Mr. Cronin. Madam Chairman, I appreciate that. And Ranking 
Member Berman and other members of the committee, thank you for 
this invitation on these timely proceedings. It is my judgment 
that the regime in Pyongyang indeed remains armed, dangerous, 
and prone to miscalculation. Indeed, the moment we think we 
know the next move of Kim Jong-Un is the moment we are going to 
be surprised yet again.
    We have heard about some of the tactical mistakes of our 
recent policy. I want to focus on strategy, in the interests of 
time. My main argument is that the United States lacks an 
effective long-term strategy for achieving peace on the Korean 
Peninsula. Despite a strong alliance with South Korea, we are 
gradually losing leverage over an opaque regime in North Korea, 
determined to acquire nuclear weapons that are designed to hit 
American soil. We lack direct contact with North Korea's 
collective leadership. We rely far too much on secondhand 
information.
    A new strategy is very difficult to put together. I don't 
suggest this is easy, and it is the nuance that will matter. 
Nonetheless, the new strategy I have proposed looks at five 
building blocks that we need to mix together. Those areas are 
strengthening defenses; strengthening alliances; creating 
crippling new targeted financial measures; but also 
establishing direct high-level contact with North Korea's 
leaders, if only to facilitate political fissures and better 
understand pressure points; and using engagement and 
information to dramatically expand the flow of information into 
and out of North Korea.
    So first, Kim Jong-Un's satellite diplomacy should catalyze 
us to bolster our missile defenses. We have no ascent-phase, 
boost-phase intercept capacity. This, combined with our mid-
phase and terminal-phase defenses, would help us and our allies 
make sure that we could knock this missile down the next time 
this happens.
    Second, we need to further reinforce the military 
capabilities and the interoperability between U.S., South Korea 
and Japan, in all three countries. Comprehensive missile 
defenses need to be matched with greater integration of command 
and control and intelligence, surveillance and reconnaissance 
capabilities. Additional steps should be taken to give higher 
priority to U.S. forces in Korea, a command that has inevitably 
suffered from the decade-long priorities placed on the 
conflicts in Afghanistan and Iraq.
    Third, we need to move beyond ineffective sanctions to find 
new means of applying real pain on recalcitrant leaders who 
flagrantly put international security at risk. The United 
States can use the combined force of government and the private 
sector to clamp down on the mostly Chinese banks the North's 
leadership relies on to fund critical leaders in the military 
party and ruling circles.
    We need precision-guided financial measures that go as far 
as those attempted nearly several years ago with Banco Delta 
Asia, to squeeze key decision makers like Jang Sung-taek. If 
they were targeted and maintained over time, this could bring 
about change.
    Fourth, the United States should seek to use serious 
pressure and defense tactics to open up more direct high-level 
talks with Kim Jong-Un, Jang Sung-taek, and two or three 
generals central to the collective leadership. It is a 
political objective, in other words, to our pressure and our 
force, and this is it. It is opening up those real talks that 
will matter.
    Only by winning access to the true inner circle of North 
Korea can we hope to determine potential fault lines, pressure 
points, and opportunities. Long-term engagement will make us 
smarter about what kind of transition that may be possible for 
North Korea, while preparing us for a hard landing should the 
regime implode.
    And fifth and finally, the United States and South Korea 
should expand their efforts to dramatically expand the flow of 
information into North Korea. North Korea cannot live forever 
in a cocoon. China and South Korea are growing so prosperous, 
the flow of information can get in. But coupled with 
engagement, we can expand that information, and it will start 
to change.
    So defense, allies, financial measures, information, and 
high-level engagement are the building blocks for a potential 
new strategic approach. I believe, put together properly, 
within the next decade we could move North Korea away from its 
regular cycle of provocation and prevarication and human rights 
abuses, to something much better.
    Thank you very much.
    [The prepared statement of Mr. Cronin follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. I admire your optimism. Thank you. 
Thank you, Dr. Cronin, I appreciate it. Now I thank all of the 
witnesses, and my apologies to cutting you off.
    I wanted to ask about the third nuclear test, about the 
influence of China, and the cooperation of North Korea with 
Iran. As many of you had said, experts are expecting that North 
Korea will, indeed, conduct a third nuclear test, especially 
since the young general lost face with this fizzled missile 
launch. Do you anticipate that any future weapons tested will 
be plutonium-based, as in the past, or will it be triggered by 
highly-enriched uranium, demonstrating an alternative nuclear 
weapons system for Pyongyang? And what should the U.S. response 
be to such a test?
    And then, following that, China's influence. As we read in 
press reports, China likely provided that mobile long-range 
missile launcher which North Korea put on display. This would 
obviously be in violation of U.N. Security Council Resolution 
1874, and China, as a permanent member of the Security Council, 
is obligated to uphold sanctions. How involved is the People's 
Liberation Army in the development, in the supply of weapons to 
the North Korean military? Do we expect Chinese technical 
support for the development of North Korean missile technology?
    And lastly, cooperation with Iran. Japanese media had 
reported that a 12-member Iranian delegation of missile and 
satellite development specialists secretly visited North Korea 
recently. The report says that this is by no means a recent 
occurrence or an isolated occurrence. What other activities, 
such as nuclear weapons design and development, have this 
regime collaborated on that we have not seen in public 
reporting as of yet?
    Mr. Fleitz.
    Mr. Fleitz. Thank you, Madam Chairman. I think the issue of 
a third nuclear test is sort of the parlor game in Washington 
right now, when and if there will be a test. And I have talked 
to a number of experts around town, and many of them think 
there will be a test. I tend to think the chances are less than 
50/50 right now.
    I think there will be a nuclear test eventually, when North 
Korea is technically ready and prepared to endure the enormous 
amount of isolation it will endure, more than it already has. 
But they have to conduct a nuclear test, because we have to 
assume that they are developing the nuclear designs. Their 
uranium enrichment program would produce nuclear fuel which has 
not been tested yet, and I think eventually there will be a 
test of that kind.
    I am sort of hoping that the statements before and after 
the rocket launch suggest that there may be a line they are not 
prepared to cross right now, and they may not currently be 
planning to conduct a nuclear test. But frankly, all bets are 
off with this country. Anything is possible.
    I think missile tests are certain. The missile tests may be 
more threatening, because the missile tests could land on 
Japan, it could land on Hawaii, the West Coast of the United 
States. And it is the delivery system for a nuclear warhead. It 
also is something that they are using to advertise their 
missile technology to other rogue states, including Iran.
    I think it is certain there was an Iranian delegation that 
was closely watching this missile test. I believe there 
probably has been some type of collaboration between the 
Iranians and the North Koreans in the nuclear sphere. I have 
also always believed that the al-Kibar reactor in the Syrian 
Desert probably had some role from Iran, that maybe this was a 
nuclear reactor that was being built so Iran could somehow 
acquire plutonium or the technology to make plutonium in an 
area that the IAEA could not detect.
    So I think this is a very dangerous situation, but 
concerning the issue of a third nuclear test, I just think it 
is hard to judge.
    Chairman Ros-Lehtinen. Thank you. Do any of the others--
yes, Dr. Green?
    Mr. Green. While we don't know, the historical pattern 
would suggest they will do a nuclear test. The propaganda of 
recent years, declaring 2012 the year North Korea will be a 
full nuclear weapons state, the hundredth anniversary of the 
birth of Kim Il-Sung, the great leader, would also suggest it.
    When Sig Hecker and other experts were shown the uranium 
enrichment facility, they saw what they thought was 2,000 
centrifuges spinning, and probably the tip of the iceberg. So 
technologically, it is, I would say possible or perhaps 
probable, they are close to ready to do a uranium test. It 
would up the ante on us considerably, and raise the asking 
price for any future negotiations.
    So if I were betting, I would say they would do it, and 
that we may be looking at a uranium test. But we don't know, 
particularly with uranium because it is much easier to hide. It 
doesn't give a signature in the atmosphere the way plutonium 
does.
    The PLA, historically, did have an involvement with the 
nuclear program in North Korea. It has been some time since 
that was the case. Jian Zemin denied that they had anything to 
do with it. I think what we saw with that TEL was more a matter 
of negligence than malicious support for North Korea, but it is 
an area we should be pressing the Chinese quite hard on, in my 
opinion.
    Chairman Ros-Lehtinen. Thank you very much. And sorry, I am 
out of time.
    Mr. Berman is recognized.
    Mr. Berman. Well, thank you very much, Madam Chairman. And 
while each of you emphasized different issues, the panel 
doesn't seem like it has a clash of approaches. I actually want 
to focus on China, but before I do that, Dr. Green, you had 
said something that caught my attention: That there are 
sanctioned entities openly doing business in China. Did I hear 
that right?
    Mr. Green. Yes.
    Mr. Berman. And so, if I did, does that say something about 
a Presidential Statement which talks about expanding the 
sanctions, then, to these, not being worth a lot? Is that the 
implication of what you were saying?
    Mr. Green. To be exact, I have seen the photos that 
Japanese photojournalists have taken of the Tengzhong Trading 
Company, the one company on the sanctions companies list, open. 
You know, the sign up. The Chinese are not implementing the 
sanctions. I don't think the administration would say they are. 
And in the Security Council, they are blocking any effort to 
add new entities, or do any sort of further steps as----
    Mr. Berman. I thought the Presidential Statement----
    Mr. Green. The Presidential Statement was interesting, 
because China had to clear on it. And it did reference 
examining new entities, and that was a positive element. Now, 
we have got to follow up on it. And part of the problem Beijing 
has is that the Foreign Ministry, which controls that decision, 
rarely can implement within China. A lot of it is the 
dysfunctionalities in this huge, complex Chinese system. But I 
think we could be doing much more, in U.N. Security Council 
deliberations, in our discussions with the Chinese, to get 
Beijing to do more.
    Mr. Berman. All right. Well, let us go to China, then. Is 
that little glimmer in the Presidential Statement any real sign 
that China is reconsidering its stability-first policy toward 
North Korea? In other words, is it a fool's errand to try to 
secure stronger cooperation from Beijing on trying to change 
Pyongyang's behavior, given that the Chinese security calculus 
just seems to be so different than ours, or some of the other 
countries in the region?
    Any of you?
    Mr. Fleitz. I would note, Mr. Berman, that this was a 
Presidential Statement, and it is not binding. And this is what 
we resort to when we can't get China and Russia to agree to 
binding language. This was a fall-back position.
    Mr. Berman. Right, I get you. And it is not binding. To the 
bigger question, is there any reason to have any hope that 
China is going to change its calculus, that a diplomatic push 
on China, who is so important to doing some of the things you 
suggested need to be done in terms of stopping what North Korea 
gets, in order to fund and implement its program. Is there 
anything out there that would indicate there is anything about 
Chinese behavior that might change, based on this most recent 
activity?
    Mr. Fleitz. The Chinese have already met with Kim Jong-Un, 
and I assume they urged him not to conduct this missile test, 
and he ignored them. I think the Chinese would like to restart 
multilateral talks under their sponsorship, and they are 
probably already working at that. But I don't think China is 
going to allow any sanctions from this missile to go forward. I 
think they are simply going to put it behind them.
    Mr. Berman. Anyone else have any thoughts?
    Mr. Snyder. Let me just add that the panel of experts that 
is implementing the Security Council Resolution has a Chinese 
expert on it, that essentially his job is to keep the committee 
from adopting anything that would be critical toward China. And 
so there are real limits to the instrument that the 
Presidential Statement has identified as the vehicle by which 
it is going to strengthen sanctions.
    With regard to China's broader strategic orientation, I 
think it is very clear that they are focused on stability, and 
the reason why the Presidential Statement went as far as it did 
was simply because President Hu heard such strong blow-back 
when he was in Seoul. But in terms of follow-through, it is 
probably not going to be there.
    Mr. Green. The Chinese are going to keep their stability-
first policy. You know, the quip for people who work on this is 
that PRC stands for ``Please remain calm.'' They will do what 
they can to lower actions, by us or North Korea, that get in 
the way of a process of talking. I think appealing to China's 
self-interest has limited utility. They know their own self-
interest. They have made their calculations.
    Part of our strategy has to be, I think, what Scott Snyder 
was referring to: Changing the atmosphere. That is why the 
trilateral U.S.-Japan-Korea piece, missile defense, are so 
important. Beijing needs to see that if they are not willing to 
use leverage more effectively on North Korea--and they have a 
lot--there is another path we have no choice but to take, which 
involves us strengthening our defenses and our relations with 
allies, which China, of course, in the long run would rather 
not see.
    So, if we are not changing their calculations, if we are 
just appealing to their self-interest, we are not going to get 
much of a change.
    Chairman Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Berman. Mr. Royce is recognized.
    Mr. Royce. I am going to pass for the moment, Madam Chair.
    Chairman Ros-Lehtinen. Okay. Mr. Burton?
    Mr. Burton. Thank you, Madam Chairman, and I am sorry I was 
a little late. We had another committee hearing. But this is 
most important. That failed rocket launch cost $850 million, 
they estimate. And I have before me a report that says that 
would have bought 2.5 million tons of corn, 1.4 million tons of 
rice, or enough for the North Korean Government to feed 
millions of its people.
    Why did they launch that, when they knew that that was a 
direct violation of the Leap Day agreement? It is like they 
said that they were going to have a hiatus on--``They want us 
to halt nuclear tests, missile tests, and allow the 
International Atomic Energy, IAEA inspectors back into the 
country after a 3-year hiatus?'' They did that, and turned 
right around and launched a missile. How do you deal with that? 
I mean, you folks indicate that we ought to continue to try to 
negotiate with them, but every time we negotiate with them, 
they turn around and stick us right in the ear.
    So that is the first question. The second thing I would 
like to ask is, in 2012 we have had both congressional and 
Presidential elections in the U.S. In South Korea it is going 
to be this year. North Korea is developing into a strong and 
prosperous nation. This was supposed to be the year that they 
were going to do that, whatever that means. It would appear 
that these three elements could form a perfect storm. In other 
words, do you expect North Korea to continue to saber-rattle 
and provoke further aggressive behavior this year, so as to try 
and impact the ongoing election cycle in South Korea?
    And then the final question--you can actually answer them 
all at once, if you like--I know I am preaching to the choir 
when I say that South Korea is one of our closest allies and 
friends in the world. We even passed a free trade agreement 
this year, and I am glad that the President signed that.
    Given the ever-present dangers posed by North Korea and the 
regime, what can we do here in Washington, in Congress, to 
create a more stable environment over there? And I am not 
talking about signing another agreement like the State 
Department did, saying that they were going to do certain 
things, and they turn right around and violate it.
    Mr. Fleitz?
    Mr. Fleitz. Thank you, sir. I believe the launch of the 
rocket last year is consistent with an historical pattern of 
North Korea making agreements, then a provocation, then looking 
for concessions, and then they get more agreements. This seems 
to be a strategy that they engage in.
    Mr. Burton. But why do we keep caving in like that? I don't 
understand that. You know, I understand we want to be 
humanitarian and help the people up there, but when the food 
goes there, we don't know that it is going to get out to the 
people who are really starving out there. So we are giving food 
through the government, not through PVAs. And they take that 
money that they would use for food if they were going to do it, 
and they launch another missile. Eight hundred and fifty 
million bucks.
    Mr. Fleitz. I think that is right, sir. I would say that--
--
    Mr. Burton. I mean, it just seems like our Government, not 
just under Democrats but Republicans as well--we have reached 
out, trying to negotiate with these guys. And I don't see where 
we have gained a thing.
    Mr. Fleitz. I think that that is--it was a mistake to link 
the nuclear issues to the food deal. But I also----
    Mr. Burton. Wait a minute. Why?
    Mr. Fleitz. I don't think the North Korean people should 
suffer from the country's proliferation. However, I----
    Mr. Burton. Well, wait a minute. Does the government 
distribute the food that we give to them?
    Mr. Fleitz. Well, that is the point I was going to make.
    Mr. Burton. Okay, but the point is, you say we shouldn't 
tie the two together. Why even give the food to them, if they 
use it for their purposes and then launch a missile?
    Mr. Fleitz. They shouldn't get food unless there are 
verification provisions to make sure it gets to the North 
Korean----
    Mr. Burton. Well, they are not going to agree to that. Are 
they?
    Mr. Fleitz. Well, then, there shouldn't be a deal.
    Mr. Burton. That is the point. That is great.
    Mr. Fleitz. And I would say, sir, there are two things I 
think Congress could do. First of all, that is one provision. 
And second of all, we have to honor our friends, the Japanese. 
A provision of the six-party talks is the Japanese abductees, 
people kidnapped by the North Korean Government, maybe hundreds 
of them. This was supposed to be part of the six-party talks. 
It has been put off by two successive administrations. It is a 
matter of principle for the United States----
    Mr. Burton. It is terrible that those people are held.
    Mr. Fleitz. And----
    Mr. Burton. But to negotiate based on fear, and that they 
might do this or that, is a sign of weakness. It is a sign of 
weakness. And I can't understand why our Government, whether 
Republican or Democrat, why we continue to negotiate with 
terrorists, terrorist organizations, and countries that 
continue to say they are going to do one thing and then violate 
the other while we are giving them billions of dollars of food 
aid and other things.
    I mean, all the way back to the Clinton administration and 
before, I remember when we negotiated for that reactor over 
there, the--what was it? The light water reactor. And they 
violated that.
    Mr. Fleitz. We offered them two light water reactors.
    Mr. Burton. I know. And I just don't understand the 
mentality. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Very good points. Thank you very 
much, Mr. Burton. Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman. And Mr. Snyder, 
picking up from the last point my colleague, Mr. Burton, just 
made, perhaps making a Devil's advocate argument about it, 
though, the idea of ``Why would we negotiate with or be engaged 
with a criminal regime?''
    Some might observe that, in the very early weeks of the new 
then-George W. Bush administration, President Bush actually 
publicly overruled his own incoming Secretary of State, Powell, 
who had said, ``We are going to continue the policy of 
engagement and negotiations of the Clinton administration.'' 
And President Bush said ``No, we are not.'' And what followed 
from that was a much more aggressive North Korean pursuit of 
its nuclear program. Would that be a fair statement?
    Mr. Snyder. Yes, I think that that is an accurate 
characterization of what happened.
    Mr. Connolly. So while one can understand the concerns 
raised by my colleague, and I share them, on the other hand the 
idea of ``let us not engage, let us in fact have a policy of 
implacable hostility,'' has consequences, given, frankly, the 
ability of North Korea to pursue inimical aims, including its 
nuclear program. Would that be a fair statement?
    Mr. Snyder. I think that there needs to be some kind of 
communication with North Korea in order to be able to manage 
and handle miscalculation.
    Mr. Connolly. Okay. Let me ask--Mr. Green, you wanted to 
comment?
    Mr. Green. If you will indulge me, I was in the White House 
at that time. And I think a more accurate description would be 
that Kim Dae-jung came in March to President Bush, before most 
of his officials were in place, and said, ``You should continue 
what President Clinton was thinking of doing, which is to go to 
North Korea.''
    And the White House position was ``we need to review our 
policy,'' which we did, and in June 2001 put out a statement 
from the White House saying, ``We will continue the agreed 
framework if North Korea honors it, and we will engage with 
North Korea.'' So it was, I don't think, a rejection of 
engagement. It was a request for a time to get the 
administration's strategy in place, because there had been so 
many problems in the past, over several administrations, with 
North Korea.
    Mr. Connolly. Fair point. I do, however, remember with some 
surprise, Secretary Powell at the time having his wings clipped 
a little bit, because he had gone out front, maybe before that 
assessment, which maybe also inadvertently sent a signal that 
had some consequences. I don't know.
    I kind of think we are between a rock and a hard place, 
because I am not convinced about the efficacy, sometimes, of 
that engagement. And I share Mr. Burton's concern--and heck, 
let me ask you, Dr. Green or Mr. Fleitz, the issue for me, 
here, and I think for Mr. Burton and others, is efficacy. Right 
after we provided some food aid to North Korea recently, they 
announced their intention to test a new rocket, or the existing 
rocket.
    How do we handle this issue of efficacy? We don't want 
millions of people to starve, but on the other hand, that kind 
of engagement, in terms of the provision of assistance, seems 
to have very limited payoff if your hope is to moderate 
behavior.
    Your comment?
    Mr. Fleitz. Sir, I don't think we should tie the regime's 
WMD programs to food, but as I said earlier, if food aid is 
provided to North Korea, there has to be strings attached. 
There has to be verification that the food will reach the 
people, and not be sold or given to their military. If they 
won't agree to those things, we shouldn't make an agreement.
    Mr. Connolly. And Dr. Green?
    Mr. Green. Congressman Burton asked, ``Why do we go into 
this cycle?'' And we do, over several administrations. And the 
difference between us and North Korea is they are consistent 
and we are not. And every administration gets in a mode, after 
a particular provocation, of sanctions and pressure, and it is 
very hard for us, or Japan or South Korea, to continue that. It 
stresses us. We have Iran, we have domestic politics in these 
countries.
    We, in 2010, were in that mode, putting pressure on the 
North. The Chinese felt the pressure. The North Koreans felt 
the pressure. We stood with South Korea, who had been attacked. 
By July of last year, we were shifting, in the United States, 
toward trying to engage, and putting pressure on South Korea to 
back off on their demands of the North. The North Koreans knew 
that.
    So even though they lost the food aid, which was small, and 
Kim Jong-Un was not invested in it, they got points on the 
scoreboard by marginalizing Lee Myung-bak, our ally. And I 
don't think that was the administration's intention, but that 
is what happened.
    Mr. Connolly. If I had more time--I only have 13 seconds--I 
would ask you, this panel, to comment a little bit on the 
consolidation by the new leader in North Korea, and how real he 
is as a leader, versus maybe sort of a tool of the military.
    Chairman Ros-Lehtinen. And that question hangs. Thank you, 
Mr. Connolly. And Mr. Royce is ready now.
    Mr. Royce. Thank you, Madam Chair. Since food aid is being 
discussed, I will just mention the Tom Lantos Human Rights 
Commission hearing that was held on this subject, where we 
heard testimony of sacks being delivered, actually, in a 
village, villagers being told, ``Don't touch those,'' and the 
trucks coming back and picking up the sacks.
    And so one of the questions here is, ``What do they do with 
that?'' Well, a French NGO, at another hearing, explained how 
it had tracked this and the food was being sold on the food 
exchange, in the capital of the country, in order to get hard 
currency for the regime. This is, perhaps, the greatest 
problem. Because, as we look at these interviews, debriefings 
done with defectors, they say, ``Food does not go in the no-go 
areas anyway,'' right? The no-go areas are no-go areas, and 
food does not get out there.
    So for the record, I had an amendment, the Royce amendment, 
here last year, that would have prohibited food aid from going 
to North Korea under these circumstances. That was watered down 
in the Senate, by the way. But I share the gentleman from 
Indiana's concerns about control of that food, and it 
indirectly propping up the regime, either by going to the 
military or being sold for hard currency.
    A couple of points I wanted to just make here, and ask you 
questions about, was to go back to Mr. Berman's point about 
elevating the discussion of human rights in this whole 
dialogue. Do you think it would be helpful if that became sort 
of a strategic imperative? Because nowhere on the planet are 
people as ground down, from what I saw. And if you read the 
reports out of the--let us call them work camps, or 
concentration camps, in terms of the people being worked to 
death there, really I think it would be beneficial if there was 
greater understanding on that front.
    And second, we now have broadcasting into North Korea. How 
about a little bit more robust Radio Free Asia broadcasting on 
what is actually going on in the country. For example, and the 
last question I will ask you here to comment on, is this 
admission on the part of the North Korean regime that the 
launch was a bust. And that is the first time, to my knowledge, 
that you had an official mention of that.
    How about broadcasting out the cost of the launch, you 
know? Three quarters of a billion or more. The cost of that 
launch, and then the privations that people face, the 
conditions in North Korea, and make the connections for people.
    Because increasingly, as people are leaving the country, 
they are saying--close to 40 percent are now saying they are 
listening to the broadcasts, they are getting access to these 
cheap radios that come over the border from China and they are 
listening to the broadcasts. How about--let me ask you your 
thoughts on those subjects.
    Mr. Cronin. Mr. Royce, thank you very much. When I was a 
third-ranking official at USAID in the George W. Bush 
administration, I worked every day on the North Korean food aid 
problem. We were trying to negotiate strict criteria for 
delivery. That is the key test. It should be based on the 
humanitarian criterion of making sure that our assistance gets 
to the people in need, not as a lever over a nuclear weapons 
program that North Korea doesn't want to negotiate away.
    It is not really leverage. That is why, I think, Mr. Fleitz 
was saying this is not really the lever for negotiations over 
nuclear weapons. It should be based on humanitarian criteria. 
If we can't get it to the people in need, then you are right, 
we shouldn't deliver it. The North----
    Mr. Royce. Then let us go back to better deploying RFA and 
VOA, because I think we have got a consensus on that.
    Mr. Cronin. Information is very important, sir, and that is 
why I am suggesting an information campaign like we have not 
seen before. But that has to be partly based on engagement. 
Because if you consider the 50,000 North Korean workers who are 
working in South Korea's one economic zone at Kaesing, that has 
been an intelligence mine for us. We can't go into this in open 
session, but I can tell you in general that those people have 
had an eye-opening effect, by seeing South Korean prosperity.
    They also get it across the Chinese border. We can both 
document human rights abuses in North Korea, and highlight 
the----
    Mr. Royce. I understand all of this. But to the extent that 
we have got hard currency going into the regime, this is a 
regime that built a reactor for Syria.
    Mr. Cronin. Yes, sir.
    Mr. Royce. That built a nuclear weapons program for Syria, 
and did it while we were under, supposedly, an agreement where 
they weren't going to proliferate. They were proliferating 
beyond anything we could have imagined, while doing a two-track 
nuclear program, and they are selling it who knows where. So at 
some point, we have got to figure out how to cut off the hard 
currency and accelerate the change inside. And giving them more 
access to it, I am not sure is the answer.
    Mr. Cronin. Targeting Chinese banks is the way to go after 
the people who are in charge.
    Mr. Royce. Thank you. Good point.
    Chairman Ros-Lehtinen. Thank you very much. Thank you. Mr. 
Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. First 
of all, let me just note that, years ago, I can remember major 
debates in the House of Representatives over whether or not we 
should have a missile defense system. Thank God those of us who 
supported missile defense won that debate. And every loony 
regime that tries to get its hands on nuclear weapons and tries 
to launch a rocket reinforces the importance of having a 
missile defense system, because that is, perhaps, one of the 
only things that gives us leverage here, is that we can defend 
ourselves.
    Also, I have been privy, as a member of this committee, to 
the debates over the years on food aid to North Korea. When did 
the United States assume the responsibility for the nutrition 
of the North Korean people? I mean, this is a loony policy on 
our side. Shall we just say that any dictatorship around the 
world that decides that they want to spend their money on 
weapons production, that they are going to automatically 
qualify for nutritional aid for their people from the United 
States, and that we are going to have expressions of sole 
concern that the food aid that we are giving them goes directly 
to their people?
    What dictatorships are we leaving out of that equation? 
Does every dictator in the world that wants to spend more money 
on weapons just do it, and then we will give them food aid? Or 
is it just North Korea? I mean, this is an insane policy that I 
remember debating this 20 years ago. And it has happened now, 
and it hasn't done any good. Giving them all this money has 
provided them the resources they need to spend $850 million on 
a rocket launch. This is something that we need, again, to have 
reality checks when we go into debates on such policies as 
these.
    I would like to ask about the Chinese, here. Do any of you 
have evidence that that rocket that was going up had important 
Chinese components on that rocket? And in their nuclear system 
that they have been building, their weapons system, are there 
not Chinese components to that that are vital to the success of 
those projects?
    Whoever knows anything about it.
    Mr. Green. Several of us have had clearances over the 
years, and there is only so much we know and only so much we 
can say. But we do know, and I think it is a matter of public 
record, that the North Koreans have put together their missile 
program, their uranium enrichment program, their reprocessing, 
by purchasing chemical precursors, highly refined uranium, 
dual-use materials, all over the world, in particular using the 
A.Q. Khan network. A lot of it----
    Mr. Rohrabacher. How about their hardware?
    Mr. Green. A lot of it comes through China. Yes, a lot of 
it comes through China. So that is why Beijing following the 
letter of the sanctions resolution is hardly enough.
    Mr. Rohrabacher. So is it not possible, when we see this 
impoverished regime in North Korea that can't even feed its own 
people, a regime that counts its power on the number of people 
marching down the streets doing the goose-step, that this is 
the regime that actually is responsible for building these 
nuclear reactors and this technology?
    Are we not dealing with Beijing? Is Beijing not using North 
Korea as a proxy? ``Please stay calm. You know, forget what I 
am doing, stay calm, go and blame the other guy over there.''
    Mr. Fleitz. I tend to think that China is not behind North 
Korea's nuclear program. I think China likes having North Korea 
as a buffer between it and South Korea. But from what I have 
seen in my career, China has never been terribly happy about 
North Korea's pursuit of nuclear weapons.
    Mr. Rohrabacher. Okay. I have got 15 seconds left on my 
time, and I am just going to suggest that China is the big 
player here. And just like we don't want to face reality that 
we shouldn't be giving food aid to a dictatorship like this or 
that we need a missile defense system, we just don't want to 
face reality of the downside of China. And for whatever reason, 
this has been going on for 20 years to America's detriment, and 
nowhere is that more clear than our policies with Korea.
    Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. 
Rohrabacher. Mr. Smith is recognized--no, sorry, Doctor Poe, 
Judge Poe, the vice chair of the Subcommittee on Oversight and 
Investigations. Just the way it is.
    Mr. Poe. It seems to me that Kim Jong-Un is just like his 
daddy. He follows in the footsteps of his daddy. He is trying 
to make a name for himself, makes a bunch of promises to the 
west. And like daddy and granddaddy, he lies. He breaks his 
word. Shock.
    You know, where I come from, if a man breaks his word, you 
probably shouldn't trust him the next time he gives his word, 
not to do something or to do something. But it seems to me, 
here we are over here, the United States: ``Okay, we will try 
it again in a few years, a few months. We will promise you the 
same thing if you just hold off on,'' in this case, ``your 
nuclear capability.''
    It seems to me that just doesn't work for North Korea. It 
doesn't work for Iran. And we are pushing a decision to really 
do something, we just push it off to the next administration. 
And I know we have heard from the other side about ``well, this 
is Bush's fault, it is Clinton's fault.'' It doesn't make any 
difference.
    Right now, we are in a situation where North Korea is going 
to be a threat, and my first question is, what is the policy of 
the United States, overall, in dealing with the nuclear 
capability of North Korea? Are we just going to keep making 
promises, keep trying to give them food, help the people? What 
is our policy toward North Korea? Dr. Fleitz?
    Mr. Fleitz. Well, part of the problem in dealing with both 
North Korea and Iran is that we are recognizing their right to 
nuclear technology. I was at the State Department, I remember 
when President Bush reaffirmed Iran's right to nuclear 
technology. And many of us had argued that if you pursue 
nuclear weapons secretly, or nuclear technology in violation of 
the IAEA, you aren't entitled to nuclear technology. And 
unfortunately, both administrations endorsed that. That may be 
something Congress could look into. States----
    Mr. Poe. What do you recommend?
    Mr. Fleitz. I think that states that cheat on their IAEA 
obligations----
    Mr. Poe. No kidding.
    Mr. Fleitz [continuing]. Have no right to peaceful nuclear 
technology, period. All right, the treaty says differently? We 
change the period. And I think that was one of the biggest 
mistakes of the Bush administration. We are seeing that in the 
negotiation with Iran. We have to make it clear that North 
Korea is not entitled to nuclear technology, because it will 
use it to make nuclear weapons.
    The agreed framework was going to give North Korea two 
additional nuclear reactors. Now, they were proliferation-
resistant, but they could still be used, under the right 
conditions, to make nuclear weapons fuel. That was a foolish 
agreement, and I think that--I guess if I were to find the 
biggest problem with our policy, that is it, and that is 
something we should work on.
    Mr. Poe. Dr. Green, briefly?
    Mr. Green. I do not think any administration is going to 
offer North Korea light water reactors. I think that is now off 
the table. So de facto, I think Mr. Fleitz's policy is our 
policy toward North Korea. Iran is another story, and I agree 
completely on that front. And I think there is an assumption 
that, if we can contain the North Korean nuclear problem, if we 
can cut a deal and basically rent the program, and pay them 
off, we can manage it until the regime collapses.
    Mr. Poe. Extortion.
    Mr. Green. The problem with that theory is, as I mentioned 
earlier, the North Koreans are not going to sit still. They are 
going to use these time-outs to increase their nuclear weapons 
capability, to threaten transfer, and to continue raising the 
asking price. So we need a strategy that focuses increasingly 
on rollback. Missile defense, alliance cooperation, 
interdiction, enforcement of sanctions. If we can't do it with 
China, then we do it without China.
    I would still maintain a diplomatic element. I think you do 
need some channel for communication for a variety of reasons, 
but I think we have had it backwards for many years, which is 
that we have made the negotiations the center stage, and all 
the other pieces the sort of secondary considerations.
    Mr. Poe. It seems to me that the North Koreans don't take 
us seriously. Would you agree with that or not, Dr. Green?
    Mr. Green. Well, they take us very seriously in one sense. 
I mean, after the collapse of the Soviet Union, Kim Il-Sung's 
strategy was to develop a relationship with the U.S., to 
marginalize the South.
    Mr. Poe. I am talking about with sanctions or consequences.
    Mr. Green. I suspect the North Koreans have gotten used to 
a pattern where we have a very hard time, in democratic 
societies, maintaining pressure on them.
    Mr. Poe. Credibility?
    Mr. Green. That we will back off, and we will move on to 
other things. Even our approach in the Security Council is 
designed to save our ammo, our diplomatic ammo, to get China 
and Russia on board for Iran and Syria. And they know that.
    Mr. Poe. One last question, because I am out of time. Long-
term, what are North Korea's intentions? What do you speculate?
    Somebody needs to answer before my time is up.
    Mr. Fleitz. I think long-term is that this corrupt regime 
wants to stay in power. That is the purpose of this corrupt 
group of people behind Kim Jong-Un and his family. That is all 
they are interested in.
    Mr. Poe. You think we should have removed them from the 
foreign terrorist list?
    Mr. Fleitz. No.
    Mr. Green. Absolutely not.
    Mr. Poe. All right. I yield back.
    Chairman Ros-Lehtinen. Thank you. Thank you very much. You 
got a lot in in those 11 seconds, Judge Poe. And Chris Smith is 
recognized. He is the chairman of the Subcommittee on Africa, 
Global Health, and Human Rights.
    Mr. Smith. Thank you very much, Madam Chair. Thank you for 
calling this very important and timely hearing. Madam Chair, at 
a hearing that I chaired in my subcommittee last September on 
human rights in North Korea, the witnesses made the following 
two important points. Many, but these are the two that I would 
like to bring up today: That any attempts to address the 
nuclear weapons issue while sidelining, or ignoring, or 
deprioritizing the human rights issue was doomed to fail. And 
second, it is imperative to provide the North Korean people 
with current, accurate information, so that they understand 
that there are alternatives to the repression under which they 
are suffering.
    I also chaired a hearing on China's forced repatriation of 
North Korean refugees with the Congressional-Executive 
Commission on China on March 5th, which pointed out China's 
violation of its solemn obligations under the Refugee 
Convention. And some of our witnesses there also made those 
points that were made in September.
    Some of our witnesses today, Madam Chair, have agreed, at 
least in their written testimony--I am sorry I missed your oral 
presentations--with many of the points raised at those 
hearings. Dr. Green, you indicate that ``we need a human rights 
policy that is unflinching in our condemnation of abuses in 
North Korea, and our efforts to muster international support to 
prevent actions, such as those by China, to return refugees to 
North Korea against their will.
    ``Humanitarian and human rights policies toward North 
Korea,'' you went on to say, ``deserve prioritization in their 
own merits, and should not be linked to the up and down tactics 
of negotiations.''
    Mr. Snyder, you indicate that providing information to 
North Koreans may be one of the most ``effective options for 
influencing North Korea's internal choices.'' And Dr. Cronin, 
you recommended that the U.S. and South Korea expand our 
efforts to ``dramatically expand the flow of information into 
North Korea.''
    VOA Korea and Radio Free Asia services broadcast 5 hours a 
day, 7 days a week, and seem to be having a positive impact in 
the country. One doctor who does humanitarian work in North 
Korea wrote to VOA Korean service that according to my friend, 
who was still in Pyongyang, you are not only the voice of 
America, but also the voice of victims of the North Korean 
dictatorship. RFA programming includes commentaries, as we all 
know, by North Korean defectors, to help North Koreans 
understand the broader world and how North Korea appears from 
the outside.
    Could any or all of you comment on the role that you think 
human rights has played in this administration's policies 
toward North Korea, and what it should play, and further 
elaborate on the means of communication and the kind of 
information to all sectors of North Korean society that you 
think we should be promoting?
    Mr. Green. Well, the administration's appointment of Robert 
King as the Ambassador for Human Rights was a good move. He 
comes from this committee, as I understand it, and is a good 
man doing a good job. I think we should be moving up to a 
higher level, though. In particular, I think we need a more 
robust multilateral strategy on human rights.
    For us in the Bush administration, it was hard. We had a 
progressive left government in Seoul that didn't want to play 
on this, and then we had in Europe, in France and Germany, 
countries that preferred to point the human rights finger at 
the U.S.
    We now have a very different lineup in Seoul and in Europe, 
and in Japan. And I think we could, with more effort, create 
more of a multilateral fund, pressing China on refoulement, the 
forced repatriation of refugees. And we know that North Korea 
is not going to fundamentally change its policy in the short 
term, but I think there is evidence that they are sensitive, 
particularly when there is a broad, multilateral indictment of 
their regime. So that is where I would encourage Ambassador 
King and his colleagues to bring it up to the next level.
    Mr. Smith. Thank you.
    Mr. Fleitz. I think human rights have basically been 
lacking from our talks with North Korea, and that is a big 
problem. We have focused on a handful of issues, trying to 
strike agreements on nuclear issues that were fairly weak, and 
we have put other issues, such as human rights and the 
abduction of Japanese citizens, to the side, because they were 
a distraction.
    I think that has been a mistake, and we have to hold to our 
principles and fight for everything we believe in when we 
engage the North Koreans, not just the issues that they are 
interested in talking about. We have to talk about what we need 
to talk about.
    Mr. Smith. Thank you.
    Mr. Cronin. And the million cell phones in North Korea 
today, even though North Koreans can only call other North 
Koreans, it means that information can now flow from one part 
of North Korea, where you cannot move around easily, to another 
part. So the more information we can pour into North Korea, it 
can seep in, and it is starting to.
    And China is richer than it used to be, so it is no longer 
a bad example. It is the example that North Korea really is 
falling behind, because it is trying to prop up a military that 
is gobbling up more than a quarter of its weak GDP. A $27-
billion gross domestic product, more than $5 billion is now 
coming in from China. China is the number one patron. We have 
got to expose this, and get information flowing in. We do need 
our South Korean ally, and there is an election coming up this 
December in South Korea.
    Mr. Snyder. Well, I just want to flag the fact that the 
North Korean Human Rights Act has been a major contribution 
from the U.S. Congress, the strong support for funding for 
information flows targeted at North Korea. We still need to 
work very hard on highlighting China's really terrible policy 
of repatriation of North Korean refugees, and I know you have 
been doing a lot of work to try to highlight that.
    Mr. Smith. Thank you very much. And thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much. And although we 
would normally conclude at this time, Mr. Connolly has an issue 
so pressing, so urgent, that I told him he could have a few 
minutes to ask it and bring it up, so as not to cause extreme 
stress, acid reflux, coronary disease, and any other medical 
complications that could ensue.
    So Mr. Connolly is recognized.
    Mr. Connolly. Why do I have the feeling, Madam Chairman, 
that this is going to cost me a lot of chocolate? [Laughter.]
    I wanted to give the panel the opportunity to answer that 
question that I put out there earlier. It seems to me an odd 
thing that we would have a hearing on North Korea and not talk 
about the change in leadership, and I think we would benefit 
from each of your observations, remembering we have to be 
succinct.
    Who is this new leader, and what is our understanding of 
consolidation of power, and who really holds the power in the 
North, and what it might mean moving forward for the 
discussions we have had this morning?
    Mr. Snyder?
    Mr. Snyder. Well, so far, I think that what we have seen on 
the surface is continuity. But as could be seen from the video, 
there is something odd, hard to accept in the west, about a 30-
year-old kid running a country surrounded by 60-year-old 
generals. So we don't know what is happening under the surface. 
And we are watching it through a TV screen. The Chinese 
actually have better direct access. What we really need is to 
see how the leader is interacting with those around him 
directly, in order to make a clear determination.
    Mr. Green. So far, he is following a clear game plan. They 
are making him up to look like his grandfather, the Great 
Leader. He is appearing more in public for on-the-spot guidance 
than people expected. Normally, there is a hundred day mourning 
period after the death of the father. But basically, he is 
following a game plan. I think that the missile and nuclear 
program is largely in place in terms of that plan, and that Kim 
Jong-Il, he called audibles. He made judgment calls about how 
to respond to western pressure and so forth.
    The interesting and troubling thing about this young 
successor is, how will he handle the audibles? How will he 
handle when things start getting rough, after a future nuclear 
test, after future provocations? How will he handle that in the 
margins? And that is where the unpredictable factor comes in, 
and where we may see tensions emerging between him and the 
military or other leadership figures.
    Mr. Fleitz. I think Kim Jong-Un is probably secure, because 
Kim Jong-Il's ill health was known for some time. I think they 
did have a transition in place before he died. Whether Kim 
Jong-Un is really running the country, or whether Kim Jong-Il's 
powerful brother-in-law and his wife are part of a triumvirate, 
we don't know yet. But we will be watching this, just like we 
used to watch the Soviet generals on May Day, to see who is 
behind whom and what is really going on in the country.
    But I just tend to think that the military is not going to 
challenge him, that the generals who might have long ago were 
purged, and they are all part of a regime that wants to stay in 
power.
    Mr. Cronin. The fact that Kim Jong-Un went ahead with the 
Leap Day deal, which had been negotiated last October in 
outline in Geneva, suggests that he did indeed want continuity, 
or that he could not overcome the military-first structure that 
he was inheriting. We don't know, is the key point, though. And 
I have done many television interviews about Kim Jong-Un, and 
this thing that they don't put on the television is the point 
that the U.S. Government, the South Korean Government, do not 
really know, because we don't have direct access to the 
dynamics of the leadership and how they make decisions.
    We need to get much closer to this problem to have a better 
understanding, no matter which policy we go with, and then we 
need a long-term hard strategy, and we need to stick to it over 
time, because this is a long game.
    Mr. Connolly. Thank you. And Madam Chairman, thank you so 
much.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly. Mr. Berman 
and I thank the witnesses. Thank you for your excellent 
testimony. Sorry about messing up the order and totally dissing 
Dr. Cronin there at the end. My apologies. Thank you very much, 
ladies and gentlemen. Thank you for joining us. And the 
committee is adjourned.
    [Whereupon, at 11:34 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
